                   Peace Corps
                   Office of Inspector General




                                      Port Vila, Vanuatu




                                        Flag of Vanuatu


                           Advice and Assistance:
                           Peace Corps/Vanuatu
                                                                  May 2010




Memorandum Report – Advice and Assistance – Peace Corps/Vanuatu
    •   Documentation used to support the claim for reimbursement only included an invoice
        from a travel agent and did not include an airline ticket receipt.

On March 11, 2009, the PCMO provided a sworn statement to the OIG admitting to a claim for
reimbursement she knew to be false with the intent to fraudulently obtain money from the U. S.
Government. The PCMO’s contract was subsequently terminated.

Additional Request for Audit Support

As a result of the of the allegation of potential travel reimbursement fraud, the Office of Global
Accounts Payable, IAP Regional Office, and PC/Vanuatu requested additional advice and
assistance to review other PC/Vanuatu operations to determine whether the fraudulent activity
substantiated by our OIG special agent was an isolated incident or whether there were other post
operations vulnerable to fraud, waste, or abuse. Our audit unit performed additional advisory
work at PC/Vanuatu from April 21 – May 13, 2009.

Scope of Review

Our scope of review was limited to post operations involving the former PCMO. The specific
areas reviewed were selected because of their high risk for additional fraud, waste or abuse that
may have been committed by the former PCMO. Additionally, we reviewed other functional
areas of concern to IAP management and PC/Vanuatu. The following areas were reviewed:


    1. A review of the former PCMO’s contractual relationship with the Peace Corps. This
        review included all contract payments, benefits, allowances, time and attendance, and
        travel claims.
    2. Medical service and supply vendor payments
    3. Medical Inventory Control
    4. Local Medical Supply Procurements
    5. International Travel
    6. Vehicle Maintenance Expenditures
    7. Fuel Purchases
    8. Vehicle Disposal
    9. Property
    10. Financial Management


                                        Results of Review
Post Area of Concern                 Audit Procedures              Finding(s)
   1. PCMO Contract                  Examined contract             1.1. Former PCMO’s
                                     payments                      personal business license
                                                                   fees were authorized under
                                                                   the contract. License fees
                                                                   were not required for the


Memorandum Report – Advice and Assistance – Peace Corps/Vanuatu
                                                                  former PCMO to work for
                                                                  the PC.
                                                                  License fees should not have
                                                                  been allowed.

                                                                  1.1 Recommendation: None.
                                                                  Country director took action
                                                                  to disallow these types of
                                                                  expenses in the future.

                                     Examined Salary and          1.2. Contract allowed for
                                     benefits allowed under the   unusual payments including
                                     contract                     “home leave” although the
                                                                  PCMO was permanent
                                                                  resident of Vanuatu. Home
                                                                  leave travel amounted to a
                                                                  free paid vacation, including
                                                                  travel expenses.

                                                                  1.2 Recommendation: None.
                                                                  Country director took action
                                                                  to disallow future
                                                                  unallowable contract cost.

                                                                  1.3 Former PCMO salary
                                                                  appeared too high for
                                                                  market conditions. Former
                                                                  PCMO was allowed to set
                                                                  own salary rates. Salary
                                                                  level was accepted
                                                                  contractually without
                                                                  independent verification of
                                                                  the local labor market.

                                                                  1.3 Recommendation: None.
                                                                  Former PCMO contract was
                                                                  terminated. See
                                                                  Background section.

                                     Reviewed Time &              1.4 Former PCMO’s time
                                     Attendance                   and attendance while “on-
                                                                  call” was questionable.
                                                                  Allegation received that the
                                                                  former PCMO claimed time
                                                                  spent while “on call” after
                                                                  duty hours and weekends


Memorandum Report – Advice and Assistance – Peace Corps/Vanuatu
                                                                  was inflated. We were
                                                                  unable to substantiate the
                                                                  allegation.


                                                                  1.4 Recommendation: That
                                                                  the country director monitor
                                                                  future time and attendance
                                                                  claims for staff working “on-
                                                                  call” to minimize the
                                                                  opportunity for abuse.

                                     Reviewed former PCMO         1.5 Payments for health
                                     benefits.                    benefits were not supported
                                                                  by an actual insurance
                                                                  policy. Insurance provider
                                                                  refused to provide proof of
                                                                  policy. This allegation was
                                                                  not pursued since the PCMO
                                                                  contract was terminated.

                                                                  1.5 Recommendation: None.
                                                                  Former PCMO contract was
                                                                  terminated. See background
                                                                  section.

2. Medical Supply Vendors            Reviewed MOUs with local     2.1 Former PCMO
                                     medical suppliers            authorization to obtain
                                                                  goods and services from
                                                                  local medical suppliers on
                                                                  behalf of the Peace Corps
                                                                  had not been revoked after
                                                                  the PCMO’s contract was
                                                                  terminated.

                                                                  2.1 Recommendation: None.
                                                                  Country director took
                                                                  immediate action to notify
                                                                  local medical suppliers to
                                                                  revoke the former PCMO’s
                                                                  procurement authority on
                                                                  behalf of Peace Corps.

                                     Reviewed local procurement   2.2 Separation of duties in
                                     procedures                   the ordering, approval and
                                                                  payment for medical


Memorandum Report – Advice and Assistance – Peace Corps/Vanuatu
                                                                  supplies and drugs was
                                                                  inadequate.

                                                                  2.2 Recommendation: That
                                                                  the country director
                                                                  implement procedures to
                                                                  ensure that there is sufficient
                                                                  internal control in the
                                                                  ordering, receiving,
                                                                  dispensing, recording, and
                                                                  payment of medical supplies
                                                                  and drugs.

                                                                  2.3 A majority of medical
                                                                  purchases were local
                                                                  procurements and therefore
                                                                  more expensive.

                                                                  2.3 Recommendation: That
                                                                  the post procure supplies
                                                                  and drugs through Peace
                                                                  Corps Headquarters and
                                                                  limit local procurement to
                                                                  emergency or time sensitive
                                                                  needs.

3. Medical Supply Inventory          Reviewed inventory control   3.1 Poor control over
                                     procedures                   medical supplies. Former
                                                                  PCMO dispensed drugs and
                                                                  supplies without recording
                                                                  in the medical records. No
                                                                  assurance that inventory
                                                                  supplies were not embezzled.
                                                                  Records were too incomplete
                                                                  to definitively determine the
                                                                  loss of inventory.

                                                                  3.1 Recommendation: None.
                                                                  The PC/Vanuatu country
                                                                  director had recently
                                                                  implemented PCM section
                                                                  734 to strengthen internal
                                                                  control over medical
                                                                  supplies after termination of
                                                                  the former PCMO.




Memorandum Report – Advice and Assistance – Peace Corps/Vanuatu
4. Laboratory Billings               Reviewed payment vouchers      4.1 Poor internal control in
                                     for medical testing services   the procurement of
                                                                    laboratory and other
                                                                    medical testing services.

                                                                    -Post paid for unallowable
                                                                    medical laboratory services
                                                                    on behalf of a staff member
                                                                    and a local national not
                                                                    affiliated with the Peace
                                                                    Corps.

                                                                    -Medical payment records
                                                                    were incomplete and not
                                                                    attributed to a particular
                                                                    patient. More questionable
                                                                    charges could exist but were
                                                                    too difficult to document due
                                                                    to the poor recordkeeping.
                                                                    Current PCMO stated the
                                                                    possibility of other
                                                                    unauthorized lab tests paid
                                                                    for by the Peace Corps.

                                                                    4.1 Recommendation: That
                                                                    the country director monitor
                                                                    payments for laboratory
                                                                    testing services to identify
                                                                    and prevent payment of
                                                                    unauthorized medical
                                                                    expenses.

5. Vehicle Disposal                  Reviewed vehicle auction       5.1 Possible bid rigging
                                     procedures and                 occurred in the sale of used
                                     documentation                  PC vehicle by auction. We
                                                                    identified irregularities in
                                                                    the auction process. PC
                                                                    personal service contractor
                                                                    obtained the vehicle for
                                                                    $8000 and resold the vehicle
                                                                    for $20,000.

                                                                    5.1 Recommendation:
                                                                    Matter was referred to OIG
                                                                    Criminal Investigations Unit
                                                                    for further investigation.


Memorandum Report – Advice and Assistance – Peace Corps/Vanuatu
                                                                  Results of investigation were
                                                                  issued in a separate report.
                                                                  Additionally, headquarters
                                                                  took action to strengthen
                                                                  vehicle auction procedures
                                                                  to disallow the sale of
                                                                  vehicles to PC staff and
                                                                  contractors.

6. Property                          Reviewed property            6.1. No property inventory
                                     inventory control            controls were in place due to
                                     procedures                   the physical move of the post
                                                                  to new office space.

                                                                  6.1 Recommendation: That
                                                                  the post perform a complete
                                                                  top to bottom physical
                                                                  inventory of property to
                                                                  establish a new baseline of
                                                                  post property inventory.

                                                                  6.2 Recommendation: That
                                                                  the post implement
                                                                  procedures to ensure that
                                                                  post property inventory
                                                                  records remain accurate.

7. International Travel              Reviewed travel vouchers     7.1 Several travel vouchers
                                     for international travel     lacked receipt from an
                                                                  airline for transportation.
                                                                  Vouchers were processed
                                                                  with invoices from a travel
                                                                  agent. This area was
                                                                  vulnerable to fraud. (See
                                                                  background section).

                                                                  7.1 Recommendation: None.
                                                                  Country director had
                                                                  already taken action to
                                                                  strengthen control over
                                                                  international travel
                                                                  payments.

8. Physical Security                 Reviewed physical security   8.1 Observed office space
                                                                  doors unlocked at night
                                                                  increasing the risk of loss


Memorandum Report – Advice and Assistance – Peace Corps/Vanuatu
                                                                   from theft. No onsite
                                                                   security.

                                                                   8.1 Recommendation: That
                                                                   the post needs to establish
                                                                   physical security policies
                                                                   and procedures for their
                                                                   new office space to prevent
                                                                   loss of property or damage
                                                                   to the PC office, and to
                                                                   provide safety and security
                                                                   to PC staff and Volunteers.

9. Financial Management              Review of administrative      9.1 Post lacked leadership in
                                     unit procedures               the Administrative Unit. As
                                                                   a result, internal control was
                                                                   non-existent. For example:
                                                                   We noted payments made
                                                                   without adequate supporting
                                                                   documentation, which
                                                                   Increases risk for fraud,
                                                                   waste, abuse and
                                                                   mismanagement.

                                                                   9.1 Recommendation: None.
                                                                   Country director took action
                                                                   to replace the administrative
                                                                   officer to improve leadership
                                                                   and strengthen overall
                                                                   administrative management.

10. Vehicle Maintenance              Reviewed vehicle fuel usage   10.1 Fuel records were
                                     logs and vehicle              incomplete and fuel usage
                                     maintenance records           was not supported by vehicle
                                                                   usage. As a result, fuel was
                                                                   vulnerable to theft and
                                                                   misuse.

                                                                   10.2 Vehicle maintenance
                                                                   and repairs were not
                                                                   competitively procured.

                                                                   10.1 Recommendation:
                                                                   None. Country director
                                                                   took action to eliminate post
                                                                   fuel storage and require fuel


Memorandum Report – Advice and Assistance – Peace Corps/Vanuatu
                                                                   to be purchased from a local
                                                                   filling station and require
                                                                   receipts for fuel purchases.

                                                                   10.2 Recommendation: That
                                                                   the post obtain multiple
                                                                   vendor estimates for repairs
                                                                   when possible in order to
                                                                   obtain the least cost to
                                                                   repair or maintain PC/
                                                                   Vanuatu vehicles.




Conclusion

Overall we found that Peace Corps/Vanuatu’s financial and administrative operations and its
compliance with agency policies and federal regulations required improvement. We noted
deficiencies in three of the five internal control standards of the Government Accountability
Office: standards requiring a control environment, control activities, and effective monitoring.
The internal control deficiencies occurred in large part because of inadequate oversight by
former post management and staff and were an underlying cause for many findings in the report.

OIG Post Recognition

We recognize the superb efforts of the post to identify and report suspected fraud, waste, abuse
and mismanagement. The current country director is credited for identifying and taking quick
corrective actions on many of the post’s deficiencies in this report. Additionally, the country
director is credited with the identification of potential fraud, waste, abuse and mismanagement.

Management Comments on Advice and Assistance

This memorandum report is advisory and is provided for management’s use and information.
The results of our review were communicated to both PC/Vanuatu and regional management in
May 2009. Therefore, it is our opinion that adequate timely corrective actions have been taken to
remediate most of the issues identified during our audit visit, and no additional formal comments
from management are required.


Report Distribution

Country Director, PC/Vanuatu
Acting Director, Office of Global Accounts Payable
General Counsel
Director, Office of Medical Services


Memorandum Report – Advice and Assistance – Peace Corps/Vanuatu
Chief Financial Officer



                     REPORT FRAUD, WASTE, ABUSE,
                        AND MISMANAGEMENT




        Fraud, waste, abuse, and mismanagement in government affect
        everyone from Peace Corps Volunteers to agency employees to
        the general public. We actively solicit allegations of inefficient
        and wasteful practices, fraud, abuse, and mismanagement related
        to Peace Corps operations domestically or abroad. You can
        report allegations to us in several ways, and you may remain
        anonymous.




Memorandum Report – Advice and Assistance – Peace Corps/Vanuatu
